No. 21-295

Fu the

Supreme Court of the Anited States

In re AMERICA’S FRONTLINE DOCTORS, et al,

Petitioners.

Amicus Curiae Brief
NATURAL SOLUTIONS FOUNDATION

As required by Supreme Court Rule 33.1(h), I certify that
the Amicus Curiae Brief in Support of Petitioners contains 5,104
words, including footnotes, but excluding the parts exempted by
Supreme Court Rule 33.1(d).

Executed on September 29, 2021.

 

PATRICIA FINN; Esq.
Counsel for Amicus Curiae
No. 21-295

In the

Supreme Court of the Anited States

In re AMERICA’S FRONTLINE DOCTORS, et al,

Petitioners.

Brief Amicus Curiae
of NATURAL SOLUTIONS FOUNDATION

I hereby declare that on this date, September 29, 2021, as
required by Supreme Court Rule 29, I have served the Brief Amicus
Curiae in Support of Petitioners on the following parties required
to be served, by depositing an envelope properly addressed and postage
prepaid, into the United States Mail:

Emily T. Kuwahara, Partner Gregory J. Glaser
Crowell & Moring 4399 Buckboard Drive, #423

515 South Flower Street, 40" Floor — Copperopolis, CA 95228
Los Angeles, CA 90071

Executed on September 29, 2021,

aes eas Le
PATRICIA FINN\ESQ. <

Counsel for Amicus Curiae

    
